OIG Investigative Reports, Orlando, FL., January 31, 2012 - Financial Aid Director Sentenced to Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT OF FLORIDA
FOR IMMEDIATE RELEASE
January 31, 2012
Financial Aid Director Sentenced to Federal Prison
Orlando, FL - U.S. Attorney Robert E. O'Neill announces that U.S. District Judge Charlene Edwards Honeywell today sentenced Velvet Lynn Sacco to a year and a day in federal prison for embezzling student loan checks. The court ordered Sacco to pay $92,702.98 in restitution. Sacco pled guilty on November 18, 2011.
According to court documents, Sacco was the director of financial aid at Everglades University (EU) in Altamonte Springs, when she stole more than $88,000 in student loan checks between October 2009 and March 2011. Officials at the university first learned of the theft after a student complained about not receiving a student loan check. After internal and external audits, EU officials learned that that Sacco's fraud scheme involved more than 50 students and 77 student loan checks. Each student who was affected by Sacco’s theft was reimbursed, with interested, by EU.
This case was investigated by the Department of Education's Office of Inspector General. It was prosecuted by Assistant United States Attorney Tanya Davis Wilson.
Top
Printable view
Last Modified: 05/04/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov